               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




     Export Controls for Acceptance of
        International Packages by
        Non-Postal Establishments
         Management Advisory Report




                                                 April 24, 2014

Report Number FT-MA-14-008


   We did not post this report due to concerns with information
         protected under the Freedom of Information Act
